TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Sensitive Data Remain at Risk From the Use
                    of Unauthorized Wireless Technology



                                          March 28, 2007

                              Reference Number: 2007-20-060




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 28, 2007


 MEMORANDUM FOR CHIEF INFORMATION OFFICER
                CHIEF, MISSION ASSURANCE AND SECURITY SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Sensitive Data Remain at Risk From the Use of
                             Unauthorized Wireless Technology (Audit # 200620029)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) wireless
 security policy and program. The overall objective of this follow-up review was to determine
 whether IRS assets are at risk from the use of unapproved wireless network devices. We also
 evaluated the security controls over the one IRS-approved wireless network. In addition, we
 determined whether existing wireless networks were properly approved and securely
 implemented and whether IRS employees or contractors were installing unapproved wireless
 networks. This audit was part of the statutory audit coverage under the Information Systems
 Programs and is included in the Treasury Inspector General for Tax Administration Fiscal
 Year 2006 Annual Audit Plan.

 Impact on the Taxpayer
 The use of wireless technology is growing at a phenomenal rate because of its convenience,
 affordability, and mobility; however, the use of wireless technology also poses significant
 security risks. We identified an unauthorized wireless device in one location and had strong
 indications of three other wireless devices at other locations. If unauthorized wireless devices
 are installed and connected to the IRS network, sensitive financial data for over 226 million
 taxpayers could be at risk.

 Synopsis
 Wireless technology is based on sending radio-wave transmissions through the air between two
 points, usually a user laptop computer and a predefined access point that can be connected back
                   Sensitive Data Remain at Risk From the Use of Unauthorized
                                     Wireless Technology



to the organization’s network to allow for full functionality and access to all computer resources.
Wireless signals can be intercepted by anyone in close proximity with inexpensive, readily
available equipment. Although encryption is available for wireless traffic, it has proven to be
weak, and free software is widely available on the Internet to break this encryption.
In February 2003, we issued a report1 that addressed the IRS’ actions to control and secure the
use of wireless technology. We reported an unauthorized wireless application in one location
was directly connected to the IRS-wide internal network containing sensitive taxpayer
information, and we had strong indications of another unauthorized wireless application at
another location. We recommended the IRS immediately disconnect all unapproved wireless
networks, issue policies and procedures for the use of wireless technology, and ensure wireless
scanning efforts include sufficient geographic coverage.
To correct the deficiencies we reported, the IRS disconnected the unauthorized wireless network
and developed a comprehensive wireless security policy that requires the Mission Assurance and
Security Services organization to approve all requests for deploying wireless networks and
devices. In addition, the IRS has scanned offices to search for unauthorized wireless devices.
Although the IRS took several corrective actions, in this review we identified similar weaknesses
that could jeopardize sensitive taxpayer systems and information.
We scanned 20 IRS buildings in 10 cities using inexpensive wireless equipment and software
freely available on the Internet. During our scanning efforts, we identified an unauthorized
wireless device in one location and had strong indications of three other wireless devices in other
locations. The wireless access point we located was not directly connected to the IRS network.
However, anyone with a wireless detection tool could pick up the wireless signal and gain access
to the computer. Also, if an employee connected to the access point with an IRS computer, and
the access point was configured improperly, a hacker conceivably could gain access to the IRS
network.
The IRS is currently attempting to detect unauthorized access points on an ad hoc basis, with
limited success. As of May 2006, it had scanned fewer than 6 percent of all IRS locations and
had concentrated mainly on the Washington, D.C., and Baltimore, Maryland, areas. We believe
this scanning is of limited value, considering wireless access points can be set up easily
anywhere in the nation and can place the confidentiality of the data at risk.
The IRS has one authorized wireless network; it is located in Bloomington, Illinois. The
Enterprise Logistics Information Technology (ELITE) network is used to receive, store, and
distribute IRS published products; it is considered by the IRS to be a low security risk. The IRS
Computer Security Incident Response Center conducted penetration tests of the ELITE
network’s wireless infrastructure in January and February 2006 to ensure it was securely

1
 Use of Unapproved Wireless Technology Puts Sensitive Data at Risk (Reference Number 2003-20-056, dated
February 2003).
                                                                                                          2
                    Sensitive Data Remain at Risk From the Use of Unauthorized
                                      Wireless Technology



configured. The tests identified that one wireless access point was using a default configuration,
security devices were not in place to detect attacks against the ELITE wireless network, and
security configurations were not being monitored. The IRS took immediate action to correct the
default configuration and installed a network intrusion prevention system for the ELITE wireless
network. However, the Enterprise Networks Division has not installed the software required to
continuously monitor the configuration files of the wireless devices due to other higher priorities.

Recommendations
To detect and deter employees from installing unauthorized wireless access points, we
recommended the Chief, Mission Assurance and Security Services, use available tools to
proactively scan, on a continuous basis, the entire IRS network for unapproved wireless devices
and periodically advise employees of the risk involved with wireless technology. The risk and
consequences for violating the current wireless policy should also be included in the IRS’ annual
security awareness training. In addition, the Chief Information Officer should ensure the
Enterprise Networks Division takes appropriate action to monitor and track the configuration
files on the ELITE wireless network to ensure all files are set in accordance with current policy.

Response
The IRS agreed with all of our recommendations. The Mission Assurance and Security Services
organization established a monthly wireless scanning project, initiated monthly scans in
November 2006 that included the nine IRS campuses2 and three IRS Computing Centers, and
will expand the number of locations scanned after performing a risk-based evaluation. In
addition, the Mission Assurance and Security Services organization will include information
about the IRS wireless policy, risks associated with wireless technology, and the consequences
for policy violations in the mandatory annual security awareness training. The Enterprise
Networks Division is currently working with the Mission Assurance and Security Services
organization to fully assess and manage the ELITE network devices to ensure all configurations
adhere to IRS standards. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
at (202) 622-8510.

2
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts. Computing
Centers support tax processing and information management through a data processing and telecommunications
infrastructure.
                                                                                                               3
                        Sensitive Data Remain at Risk From the Use of Unauthorized
                                          Wireless Technology




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Corrective Actions Were Taken; However, We Continue to Locate
          Unauthorized Wireless Devices....................................................................Page 3
                    Recommendations 1 and 2: ................................................Page 5

          Most Corrective Actions Have Been Taken to Ensure Adequate
          Security of the Enterprise Logistics Information Technology
          Wireless Network..........................................................................................Page 6
                    Recommendation 3:..........................................................Page 7


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Locations Scanned for Wireless Devices.............................Page 12
          Appendix V – Management’s Response to Draft Report .............................Page 13
        Sensitive Data Remain at Risk From the Use of Unauthorized
                          Wireless Technology




                      Abbreviations

CSIRC           Computer Security Incident Response Center
ELITE           Enterprise Logistics Information Technology
IRS             Internal Revenue Service
                    Sensitive Data Remain at Risk From the Use of Unauthorized
                                      Wireless Technology




                                          Background

The use of wireless technology is growing at a phenomenal rate because of its convenience,
affordability, and mobility. These benefits that make wireless technology so useful and
attractive to its users also pose significant security risks.
Wireless technology is based on sending radio-wave
transmissions through the air between two points,                 Ninety-five percent of corporate
usually a user laptop computer and a predefined access          laptop computers shipped in 2005
                                                                    were equipped for wireless
point that can be connected back to the organization’s                       operation.
network to allow for full functionality and access to all
computer resources. Wireless signals can be intercepted
by anyone in close proximity with inexpensive, readily available equipment. Although
encryption is available for wireless traffic, it has proven to be weak. Free software is widely
available on the Internet to break this encryption.
Loosely organized hacker and investigative groups have been scanning metropolitan areas for
wireless technology for some time. Commonly referred to as “war driving,” this activity has
more recently been extended to hackers posting information on locations of insecure wireless
networks for others to potentially exploit.
The Privacy Rights Clearinghouse1 reports that personal information of over 100 million
Americans has been compromised since February 2005.
More than 50 percent of the damage came from                  Sensitive financial data for over
intruders who were not authorized to access the               226 million taxpayers’ accounts
information, several of whom used wireless attacks. For      could be at risk if an unapproved
the Internal Revenue Service (IRS), the security risks      wireless device was installed and
associated with wireless technology mainly involve the         connected to the IRS network.
improper access to and unauthorized disclosure of
sensitive taxpayer data.
In February 2003, we issued a report2 that addressed the IRS’ actions to control and secure the
use of wireless technology. We reported an unauthorized wireless application in one location
was directly connected to the IRS-wide internal network containing sensitive taxpayer
information, and we had strong indications of another unauthorized wireless application at
another location, although we were unable to locate a wireless device.

1
  The Privacy Rights Clearinghouse is a nonprofit consumer organization with a two-part mission: consumer
information and consumer advocacy.
2
  Use of Unapproved Wireless Technology Puts Sensitive Data at Risk (Reference Number 2003-20-056, dated
February 2003).
                                                                                                       Page 1
                  Sensitive Data Remain at Risk From the Use of Unauthorized
                                    Wireless Technology



As of January 2007, the IRS had only one approved wireless network, the Enterprise Logistics
Information Technology (ELITE) network, which is an integrated, web-based, real-time system
used to receive, store, and distribute IRS published products at the National Distribution Center
in Bloomington, Illinois. The ELITE network, specifically used for order management,
inventory management, and distribution of products, is designated by the IRS as a low security
risk.
We performed the review at the offices of the Chief Information Officer and the Chief, Mission
Assurance and Security Services, in Washington, D.C., and at IRS offices located in Dallas,
Fort Worth, and Houston, Texas; Plantation, Miami, and West Palm Beach, Florida;
Denver, Colorado; Portland, Oregon; Atlanta, Georgia; and Bloomington, Illinois, during the
period April through November 2006. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objectives, scope and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 2
                     Sensitive Data Remain at Risk From the Use of Unauthorized
                                       Wireless Technology




                                      Results of Review

In our February 2003 report, we recommended the IRS immediately disconnect all unapproved
wireless networks, issue policies and procedures for the use of wireless technology, and ensure
wireless scanning efforts include sufficient geographic coverage. To correct the deficiencies we
reported, the IRS disconnected the unauthorized wireless network and took several other
corrective actions. However, in this review we identified similar weaknesses that could
jeopardize sensitive taxpayer systems and information.

Corrective Actions Were Taken; However, We Continue to Locate
Unauthorized Wireless Devices
Based on the prior report recommendations, the IRS developed a comprehensive wireless
security policy consistent with standards, best practices, and guidance from the Department of
the Treasury, the National Institute of Standards and Technology,3 and the United States
Government Accountability Office and issued the policy in March 2006. The policy
incorporated guidance from some of the industry security leaders such as the Department of
Defense, Defense Information System Agency,4 and Center for Internet Security.5 The policy
requires that the IRS Mission Assurance and Security Services organization approve all requests
for deploying wireless networks and devices. All authorized wireless systems must be certified
and accredited by the IRS Modernization and Information Technology Services and the Mission
Assurance and Security Services organizations.
To complement the wireless security policy, the IRS Computer Security Incident Response
Center (CSIRC)6 and the Treasury Inspector General for Tax Administration Office of
Investigations System Intrusion Network Attack Response Team jointly conduct periodic scans
to detect any unauthorized wireless devices at selected IRS facilities. Over the last several years,
they have conducted approximately 30 wireless scans mainly in and around Washington, D.C.,
including the New Carrollton Federal Building and Baltimore, Maryland, field offices. Other
locations were scanned based on allegations from either the IRS or Treasury Inspector General

3
  The National Institute of Standards and Technology’s mission is to promote United States innovation and
industrial competitiveness by advancing measurement science, standards, and technology in ways that enhance
economic security and improve our quality of life.
4
  An agency in the Department of Defense responsible for developing, operating, and supporting information
systems to serve the needs of the President, the Secretary of Defense, and the Joint Chiefs of Staff.
5
  A nonprofit enterprise whose mission is to help organizations reduce the risk of business and electronic commerce
disruptions resulting from inadequate technical security controls.
6
  Designed to ensure the IRS has a team of capable “first responders” who are organized, trained, and equipped to
identify, contain, and eradicate cyber threats targeting IRS computers and data.
                                                                                                            Page 3
                       Sensitive Data Remain at Risk From the Use of Unauthorized
                                         Wireless Technology



for Tax Administration employees. Through their joint efforts, one unapproved wireless access
point connected to the IRS network was detected in an office in Dallas, Texas.
We scanned 20 IRS buildings in 10 cities using inexpensive wireless equipment and software7
freely available on the Internet. During our scanning efforts, we identified an unauthorized
wireless device in one location and had strong indications of three other wireless devices at other
locations. Appendix IV includes a complete list of the locations we scanned for wireless
devices.
The IRS Criminal Investigation Division in Denver, Colorado, had connected one unauthorized
wireless access point to a desktop computer
(see Figures 1 and 2). The device was not connected to
the IRS’ network but had its own Digital Subscriber
Line (commonly known as DSL)8 connected to it. The
former Director, Special Investigative Techniques
Division, approved the purchase of the device. The
Denver Criminal Investigation Division Lead
Development Center uses the device to log onto the            Figure 1: Wireless access point.
Internet as an undercover computer to assist with investigations. The device was originally
installed with the wireless features turned off by default; so someone within the office configured
the device for wireless capabilities. Neither of the two system administrators could explain to us
why the wireless features were turned on, only that the device is rarely used. However, on the
morning we scanned the office, the wireless device was activated and operating, and when we
returned in the afternoon, it had been turned off. The system administrators stated they were
aware of the IRS’ wireless security policy but did not believe they had violated the policy
because the wireless access point was not connected to a computer on the IRS network.
                                              Although the wireless access point was not directly
                                              connected to the IRS network, our concern is that anyone
                                              with a wireless detection tool could pick up the wireless
                                              signal and gain access to the computer. Also, if an
                                              employee connected to the access point with an IRS
                                              computer, and the access point was configured improperly,
                                              a hacker conceivably could gain access to the IRS
    Figure 2: Criminal Investigation          network. Once the device was located and identified, the
    Division computer with wireless access    Treasury Inspector General for Tax Administration Office
    point.                                    of Investigations was contacted to remove the wireless
                                              access point and eliminate the vulnerability.


7
  We used Kismet, a free online tool used to detect the presence of both wireless access points and wireless clients
and associate them to each other.
8
  A Digital Subscriber Line provides digital data transmission over the wires of a local telephone network.
                                                                                                              Page 4
                    Sensitive Data Remain at Risk From the Use of Unauthorized
                                      Wireless Technology



In addition, we detected strong wireless signals at three
other facilities but were unable to pinpoint where the
access points were located. The strength of the signals               We found strong indications of
                                                                      wireless access points at three
indicated some kind of wireless activity. We were                         different IRS locations.
advised that an unauthorized wireless access point was
in use prior to our arrival in at least one location.
Currently, the IRS is attempting to detect unauthorized access points on an ad hoc basis, with
limited success. As of May 2006, it had scanned fewer than 6 percent of all IRS locations and
had concentrated mainly on the Washington, D.C., and Baltimore, Maryland, areas. We believe
this scanning is of limited value, considering wireless access points can be set up easily
anywhere in the nation and can place the confidentiality of the data at risk. In addition, the IRS
has not used available tools that continuously monitor network traffic for malicious or accidental
wireless activities. These tools can provide additional protection, regardless of the location, and
provide immediate detection. We also believe employees were not aware of the risks of
establishing wireless access points.

Recommendations
Recommendation 1: The Chief, Mission Assurance and Security Services, should use
available tools to proactively scan, on a continuous basis, the entire IRS network for unapproved
wireless devices.
        Management’s Response: IRS management agreed with this recommendation. The
        Mission Assurance and Security Services organization established a monthly wireless
        scanning project, initiated monthly scans in November 2006 that included the nine IRS
        campuses9 and three IRS Computing Centers, and will expand the number of locations
        scanned after performing a risk-based evaluation.
Recommendation 2: The Chief, Mission Assurance and Security Services, should
periodically advise employees of the risk involved with wireless technology. The risk and
consequences for violating the current wireless policy should also be included in annual security
awareness training.
        Management’s Response: IRS management agreed with this recommendation. The
        Mission Assurance and Security Services organization will include information about the
        IRS wireless policy, risks associated with wireless technology, and the consequences for
        policy violations in the mandatory annual security awareness training.


9
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts. Computing
Centers support tax processing and information management through a data processing and telecommunications
infrastructure.
                                                                                                         Page 5
                 Sensitive Data Remain at Risk From the Use of Unauthorized
                                   Wireless Technology



Most Corrective Actions Have Been Taken to Ensure Adequate
Security of the Enterprise Logistics Information Technology Wireless
Network
The IRS has one authorized wireless network; it is located in Bloomington, Illinois. The ELITE
network is an integrated, web-based, real-time supply chain system used to receive, store, and
distribute IRS published products. The IRS considers it to be a low security risk. The current
IRS wireless policy states all approved wireless networks shall adhere to specific security
requirements that include:
   •   Wireless networks and devices transmitting Sensitive But Unclassified information shall
       obtain certification and accreditation.
   •   An intrusion detection system shall monitor the wireless environment and immediate
       surrounding areas.
The CSIRC conducted penetration tests of the ELITE network’s wireless infrastructure in
January and February 2006 to ensure it was securely configured, followed the current policy, and
was not susceptible to any known attacks. During its reviews, the CSIRC identified the
following issues:
   •   One access point on the wireless network was still using its default configuration. The
       IRS took immediate corrective action, making the necessary changes to ensure all access
       points were properly and consistently configured. On March 9, 2006, the IRS certified
       and accredited the ELITE wireless network and accepted the security risks identified.
   •   Security devices were not in place to detect attacks against the ELITE wireless network.
       Subsequently, in May 2006, the CSIRC installed a Network Intrusion Prevention System,
       which automatically blocks malicious attacks against this wireless network. Potential
       attacks are continuously monitored by the CSIRC.
   •   Security configurations were not monitored on the ELITE wireless network. Inadvertent
       or intentional changes to the security configurations could increase the likelihood that the
       network could be compromised and operations disrupted. The CSIRC recommended the
       Enterprise Networks Division within the Modernization and Information Technology
       Services organization monitor the security configuration settings of the devices on the
       wireless network. At the time of our review, the Enterprise Networks Division had not
       installed the software required to continuously monitor the configuration files of the
       wireless devices, as recommended, due to other higher priorities.




                                                                                            Page 6
                  Sensitive Data Remain at Risk From the Use of Unauthorized
                                    Wireless Technology



Recommendation
Recommendation 3: The Chief Information Officer should ensure the Enterprise Networks
Division takes appropriate action to monitor and track the configuration files on the ELITE
wireless network to ensure all files are set in accordance with the IRS wireless security policy.
       Management’s Response: IRS management agreed with this recommendation. The
       Enterprise Networks Division is currently working with the Mission Assurance and
       Security Services organization to fully assess and manage the ELITE network devices to
       ensure all configurations adhere to IRS guidelines, standards, and procedures.




                                                                                            Page 7
                 Sensitive Data Remain at Risk From the Use of Unauthorized
                                   Wireless Technology



                                                                                  Appendix I

       Detailed Objectives, Scope, and Methodology

The overall objective for this follow-up review was to determine whether IRS assets are at risk
from the use of unapproved wireless network devices. We also evaluated the security controls
over the one IRS-approved wireless network. In addition, we determined whether existing
wireless networks were properly approved and securely implemented and whether IRS
employees or contractors were installing unapproved wireless networks. To accomplish our
objective, we:
I.     Determined whether the IRS had developed and implemented policies, procedures, and
       guidance for the use of wireless technology.
       A. Determined what corrective actions were taken on the recommendations from our
          prior audit report entitled, Use of Unapproved Wireless Technology Puts Sensitive
          Data at Risk (Reference Number 2003-20-056, dated February 2003).
       B. Evaluated the current IRS Internal Revenue Manual, policies, procedures, and
          wireless guidance.
       C. Compared the IRS wireless policy and procedures to the Department of the Treasury,
          National Institute of Standards and Technology, and other Federal Government
          standards on wireless technology. We also compared them to private industry best
          practices and recommended solutions.
II.    Evaluated the security of the ELITE wireless network.
       A. Reviewed approval documents to determine whether this wireless network was
          properly approved and whether the documents covered security concerns over
          wireless weaknesses.
       B. Evaluated system reviews conducted by the CSIRC and other organizations to
          identify whether problems with this wireless network have been previously identified.
       C. Evaluated the logical and physical security protections of this wireless network.
III.   Determined whether any unauthorized wireless networks exist.
       A. Contacted IRS management, the CSIRC, and the Treasury Inspector General for Tax
          Administration System Intrusion Network Attack Response Team to determine the
          locations of known approved wireless networks and devices and how often scans for
          unapproved wireless services are performed, where these scans have been conducted,
          and what the results have been.

                                                                                          Page 8
                     Sensitive Data Remain at Risk From the Use of Unauthorized
                                       Wireless Technology



         B. Remotely identified the number and types of wireless devices in use by performing a
            Nessus Access Point scan1 of the entire IRS network.
         C. Conducted 20 scans for wireless devices at a judgmental sample of IRS buildings in
            10 different cities to identify unapproved wireless networks. The previous audit steps
            provided an indicator of wireless devices that may reside on the IRS network. This
            audit step was to determine the actual existences of the wireless devices. Selection of
            the sites we scanned was based on the locations of approved wireless systems,
            locations where wireless devices were identified in the past, and locations where
            wireless devices appeared to exist based on the scan in Step III.B. A judgmental
            sample was used because we were not planning to project our audit results. See
            Appendix IV for a list of the locations we scanned.




1
 Nessus is an open-source vulnerability assessment tool designed for Unix systems. In addition to identifying
vulnerabilities in operating systems and applications, Nessus uses several techniques to identify unauthorized access
point devices.
                                                                                                             Page 9
                 Sensitive Data Remain at Risk From the Use of Unauthorized
                                   Wireless Technology



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Kent Sagara, Acting Director
Thomas Polsfoot, Audit Manager
Esther Wilson, Lead Auditor
Charles Ekunwe, Senior Auditor
Cari Fogle, Senior Auditor
George Franklin, Senior Auditor
Jimmie Johnson, Senior Auditor
Louis Lee, Senior Auditor
Jackie Nguyen, Senior Auditor




                                                                                     Page 10
                Sensitive Data Remain at Risk From the Use of Unauthorized
                                  Wireless Technology



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Information Officer OS:CIO
       Chief, Mission Assurance and Security Services OS:MA
       Director, Program Oversight Office OS:CIO:SM:PO




                                                                       Page 11
                   Sensitive Data Remain at Risk From the Use of Unauthorized
                                     Wireless Technology



                                                                               Appendix IV

            Locations Scanned for Wireless Devices

We scanned 20 offices in 10 cities to identify unapproved wireless devices. The table below
presents the list of office locations we scanned and the number of devices identified.

         Cities                      Office Addresses                  Unapproved Wireless
                                                                             Devices
                                                                     Confirmed Unconfirmed
Dallas, Texas                 •   4050 Alpha Road
                              •   1100 Commerce Street
Fort Worth, Texas             •   819 Taylor Street
Houston, Texas                •   1919 Smith (Mickey Leland                              X
                                  Building)
                              •   8701 South Gessner                                     X
                              •   12941 North IH-45
                              •   8876 Gulf Freeway
Plantation, Florida           •   7850 Southwest 6th Court                               X
                              •   1000 South Pine Island Road
Miami, Florida                •   51 Southwest First Avenue
West Palm Beach,              •   1700 Palm Beach Lakes
Florida                           Boulevard
Denver, Colorado              •   600 17th Street                         X
                              •   1244 Speer Boulevard
Portland, Oregon              •   3rd Avenue (Federal Building)
                              •   120 Main Street
Atlanta, Georgia              •   2970 Brandywine Road
                              •   401 West Peachtree Street
                              •   6655 Peachtree-Dunwoody Road
                              •   2888 Woodcock Boulevard
Bloomington, Illinois         •   2402 East Empire (National
                                  Distribution Center)
      Totals: 10                              20                          1              3


                                                                                        Page 12
    Sensitive Data Remain at Risk From the Use of Unauthorized
                      Wireless Technology



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 13
Sensitive Data Remain at Risk From the Use of Unauthorized
                  Wireless Technology




                                                      Page 14
Sensitive Data Remain at Risk From the Use of Unauthorized
                  Wireless Technology




                                                      Page 15
Sensitive Data Remain at Risk From the Use of Unauthorized
                  Wireless Technology




                                                      Page 16
